14

IN THE SUPREME COURT OF THE UNITED STATES
No.
Henry Eugene Gossage v. Office of Personnel Management

PROOF OF SERVICE
I, Henry E. Gossage, pro se veteran, hereby declare that on the certify that on this
4th day of May 2021, submitted Petition for Certiorari, Affidavit in Support as a
Veteran, and Motion to Proceed as a Veteran, to the OPM. U.S. Attorney General
Civil Division in the above style proceeding, via e-mail and depositing in the U.S.
mail, postage prepaid.
U.S. Attorney General
Civil Division
P.O. Box 480
Ben franklin Station
Washington, D.C.
Henry4L. Gossage
Pro se Veteran
9421 Johnson Pt Lp NE
Olympia, WA 98516
(360) 951-7826
hegossage @gmail.com

